72894               Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules

what are the practical and policy             DEPARTMENT OF HEALTH AND                     or reward business reimbursable under
considerations associated with the            HUMAN SERVICES                               the Federal health care programs. The
various forms of inducements? Which                                                        offense is classified as a felony and is
kinds of inducements matter most to the       Office of Inspector General                  punishable by fines of up to $25,000
efficient and successful completion of a                                                   and imprisonment for up to 5 years. The
clinical trial? What might be a               42 CFR Part 1001                             OIG may also propose the imposition of
reasonable cap on the value of                                                             civil money penalties, in accordance
inducements offered to particular             Solicitation of New Safe Harbors and         with section 1128A(a)(7) of the Act (42
                                              Special Fraud Alerts                         U.S.C. 1320a–7a), or exclusions from the
patients?
                                                                                           Federal health care programs, in
   • Sources of benefits. The OIG is          AGENCY: Office of Inspector General
                                                                                           accordance with section 1128(b)(7) of
aware that, in some cases, free items or      (OIG), HHS.
                                                                                           the Act (42 U.S.C. 1320a–7(b)(7)).
services are offered to enrollees in a        ACTION: Notice of intent to develop
                                                                                             Since the statute on its face is so
clinical trial by parties other than the      regulations.                                 broad, concern has been expressed for
trial sponsor. For example, a                                                              many years that some relatively
                                              SUMMARY: In accordance with section
manufacturer might furnish patients                                                        innocuous commercial arrangements
                                              205 of the Health Insurance Portability
with free or discounted products used                                                      may be subject to criminal prosecution
                                              and Accountability Act (HIPAA) of
in the course of the trial (but not the                                                    or administrative sanction. In response
                                              1996, this annual notice solicits
products that are the subject of the          proposals and recommendations for            to the above concern, the Medicare and
clinical trials). These kinds of              developing new and modifying existing        Medicaid Patient and Program
arrangements raise concerns, as the           safe harbor provisions under the anti-       Protection Act of 1987, section 14 of
benefits may induce enrollees to              kickback statute (section 1128B(b) of the    Public Law 100–93, specifically
continue to use the manufacturer’s            Social Security Act), as well as             required the development and
products after completion of the trial.       developing new OIG Special Fraud             promulgation of regulations, the so-
                                              Alerts. In addition, this notice solicits    called ‘‘safe harbor’’ provisions,
3. Inducements of Low Value                                                                specifying various payment and
                                              public comments regarding the
   As noted above, Congress indicated         development of possible guidance             business practices which, although
an intent to permit items and services of     addressing certain credentialing             potentially capable of inducing referrals
‘‘nominal’’ value under section               practices.                                   of business reimbursable under the
                                                                                           Federal health care programs, would not
1128A(a)(5) of the Act. Consistent with       DATES: To assure consideration, public       be treated as criminal offenses under the
this intent, in the preamble to the final     comments must be delivered to the            anti-kickback statute and would not
regulations governing section                 address provided below by no later than      serve as a basis for administrative
1128A(a)(5), we indicated that items          5 p.m. on February 7, 2003.                  sanctions. The OIG safe harbor
and services of nominal value are not         ADDRESSES: Please mail or deliver your       provisions have been developed ‘‘to
prohibited by the statute and thus no         written comments to the following            limit the reach of the statute somewhat
exception would be necessary (65 FR           address: Office of Inspector General,        by permitting certain non-abusive
24410; April 6, 2000). We further             Department of Health and Human               arrangements, while encouraging
interpreted ‘‘nominal’’ value to mean         Services, Attention: OIG–71–N, Room          beneficial and innocuous arrangements’’
less the $10 per item and $50 in the          5246, Cohen Building, 330                    (56 FR 35952; July 29, 1991). Health
aggregate on an annual basis (65 FR           Independence Avenue, SW.,                    care providers and others may
24411; April 6, 2000).                        Washington, DC 20201.                        voluntarily seek to comply with these
   We invite comments on whether, for           We do not accept comments by               provisions so that they have the
the sake of clarity and bright-line           facsimile (FAX) transmission. In             assurance that their business practices
guidance, we should codify an                 commenting, please refer to file code        are not subject to any enforcement
exception for inducements of low value,       OIG–71–N. Comments received timely           action under the anti-kickback statute or
and, if so, what the value should be.         will be available for public inspection as   related administrative authorities. The
Should the exception include a per item       they are received, generally beginning       safe harbor provisions are codified at 42
or service limitation on value or should      approximately 3 weeks after publication      CFR 1001.952.
it look solely to value on an annual (or      of a document, in Room 5541 of the           B. OIG Special Fraud Alerts and Special
other) aggregate basis?                       Office of Inspector General at 330           Advisory Bulletins
                                              Independence Avenue, SW.,
4. Other Exceptions                           Washington, DC, on Monday through              The OIG has also periodically issued
                                              Friday of each week from 8 a.m. to 4:30      Special Fraud Alerts and Special
  The OIG welcomes suggestions for            p.m.                                         Advisory Bulletins to give continuing
other possible exceptions to section                                                       guidance to health care providers with
                                              FOR FURTHER INFORMATION CONTACT: Joel
1128A(a)(5) of the Act. As noted above,                                                    respect to practices the OIG finds
comments are particularly useful if they      Schaer, (202) 619–0089, OIG
                                                                                           potentially fraudulent or abusive. The
                                              Regulations Officer.
address the legal and policy concerns                                                      Special Fraud Alerts and Bulletins
raised by the application of section          SUPPLEMENTARY INFORMATION:                   encourage industry compliance by
1128A(a)(5) to particular business            I. Background                                giving providers guidance that can be
practices and offer specific suggestions                                                   applied to their own businesses. The
for applicable criteria.                      A. The OIG Safe Harbor Provisions            OIG Special Fraud Alerts and Bulletins
  Dated: November 19, 2002.                     Section 1128B(b) of the Social             are intended for extensive distribution
                                              Security Act (the Act) (42 U.S.C. 1320a–     directly to the health care provider
Janet Rehnquist,
                                              7b(b)) provides criminal penalties for       community, as well as those charged
Inspector General.
                           individuals or entities that knowingly       with administering the Federal health
[FR Doc. 02–31040 Filed 12–6–02; 8:45 am] 
   and willfully offer, pay, solicit, or        care programs. The OIG Special Fraud
BILLING CODE 4152–01–P                        receive remuneration in order to induce      Alerts and Bulletins are available on the
                     Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules                               72895

OIG Web page at http://oig.hhs.gov/               factors in reviewing proposals for new            A. Are hospital staff privileges
fraud/fraudalerts.html.                           or modified safe harbor provisions, such       ‘‘remuneration’’? Historically, so long as
                                                  as the extent to which the proposals           a physician had privileges at one
C. Section 205 of Public Law 104–191
                                                  would effect an increase or decrease           hospital, the denial of privileges at
  Section 205 of Public Law 104–191               in—                                            another hospital was rarely actionable,
requires the Department to develop and              • Access to health care services;            since the physician could admit his or
publish an annual notice in the Federal             • The quality of care services;              her patients to the hospital at which the
Register formally soliciting proposals              • Patient freedom of choice among            physician had privileges. With the
for modifying existing safe harbors to            health care providers;                         growth of managed care networks,
the anti-kickback statute and for                   • Competition among health care              especially in combination with the
developing new safe harbors and                   providers;                                     growth of health care systems that
Special Fraud Alerts.                               • The cost to Federal health care            substantially control local markets,
  In developing safe harbors for a                programs;                                      access to patients may depend on
criminal statute, the OIG is required to            • The potential overutilization of the       having privileges at the proper hospital.
engage in a thorough review of the range          health care services; and                      What effect, if any, do these
of factual circumstances that may fall              • The ability of health care facilities      developments have on the
within the proposed safe harbor subject           to provide services in medically               determination whether staff privileges
area so as to uncover potential                   underserved areas or to medically              are remuneration? Should the
opportunities for fraud and abuse. Only           underserved populations.                       determination whether staff privileges
then can the OIG determine, in                      In addition, we will take into               have monetary value turn on the
consultation with the Department of               consideration other factors, including,        particular factual circumstances (e.g., in
Justice, whether it can effectively               for example, the existence (or                 a given market, does access to privileges
develop regulatory limitations and                nonexistence) of any potential financial       have a demonstrable monetary value)?
controls that will permit beneficial and          benefit to health care professionals or        Under what circumstances do staff
innocuous arrangements within a                   providers that may vary based on their         privileges have monetary value?
subject area while, at the same time,             decisions to (1) order a health care item         B. What are the implications of a
protecting the Federal health care                or service or (2) arrange for a referral for   hospital’s denial of privileges to a
programs and their beneficiaries from             health care items or services to a             physician who competes with the
abusive practices.                                particular practitioner or provider.           hospital? Increasingly, physicians invest
                                                  B. Criteria for Developing Special Fraud       in and own entities, such as ambulatory
II. Solicitation of Additional New                                                               surgical centers, cardiac catheterization
Recommendations and Proposals                     Alerts and Advisory Bulletins
                                                                                                 labs, and specialty hospitals, that
   In accordance with the requirements              In determining whether to issue              compete with hospital services. These
of section 205 of Public Law 104–191,             Special Fraud Alerts and Special               physicians may be in a position to steer
the OIG last published a Federal                  Advisory Bulletins, we will consider,          profitable business or patients to their
Register solicitation notice for                  among other factors, whether, and to           own competing business through their
developing new safe harbors and                   what extent, the identified conduct may        control of referrals. A credentialing
Special Fraud Alerts on December 19,              result in any of the consequences set          policy that categorically refuses
2001 (66 FR 65460). As required under             forth above, as well as the potential          privileges to physicians with significant
section 205, a status report of the public        volume and frequency of the identified         conflicts of interest would not appear to
comments received in response to that             conduct.                                       implicate that anti-kickback statute in
notice is set forth in Appendix G to the          III. Solicitation of Public Comments on        most situations. How should such
OIG’s Semiannual Report covering the              Certain Credentialing Practices                physicians be defined: ownership?
period April 1, 2002 through September,                                                          employee or contractor? staff leadership
                                                     We have been asked by the American          position?
30, 2002.1 The OIG is not seeking                 Medical Association (AMA) to issue
additional public comment on the                                                                    C. Should the exercise of discretion
                                                  guidance regarding the legality under          by the privilege-granting hospital affect
proposals listed in Appendix G at this            the federal anti-kickback statute of
time. Rather, this notice seeks                                                                  the analysis under the anti-kickback
                                                  certain practices in connection with the       statute? Several credentialing practices
additional recommendations regarding              granting of hospital staff privileges.
the development of proposed or                                                                   have been brought to our attention that
                                                  According to the AMA and other                 give the privilege-granting hospital
modified safe harbor regulations and              sources, an increasing number of               discretion to evaluate the ‘‘financial
new Special Fraud Alerts beyond those             hospitals are refusing to grant staff          conflict’’ created by a physician’s
summarized in Appendix G to the OIG               privileges to physicians who (1) own or        outside business interests and permit
Semiannual Report referenced above. A             have other financial interests in, or          the physician to retain privileges subject
detailed explanation of justifications for        leadership positions with, competing           to periodic review. Such discretionary
a suggested safe harbor or Special Fraud          healthcare entities, (2) refer to              decision-making appears to raise
Alert, as well as supporting empirical            competing health care entities, or (3) fail    substantial risks under the anti-kickback
data if available, would be helpful and           to admit some specified percentage of          statute (i.e., privileges are conditioned
should, if possible, be included in any           their patients to the hospital. There may      on a sufficient flow of referred
response to this solicitation.                    be other examples of restrictive               business). What factors other than the
A. Criteria for Modifying and                     credentialing.                                 amount of business still being generated
Establishing Safe Harbor Provisions                  In evaluating the propriety of these        for the hospital might be used as the
                                                  credentialing practices, the OIG has           basis for the hospital exercising
  In accordance with section 205 of
                                                  identified the following issues about          discretion in these kinds of
HIPAA, we will consider a number of
                                                  which it is soliciting public comment in       arrangements? From a policy
  1 The OIG Semiannual Report can be accessed     order to develop a better understanding        perspective, are there bases for the
through the OIG Web site at http://oig.hhs.gov/   of these practices and their potential for     hospital’s review or exercise of
publications/semiannual.html.                     abuse:                                         discretion that should not implicate the
72896               Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules

anti-kickback statute? Are there limits       rulemaking (65 FR 25460) soliciting              routine, nor advertised. No exception
on discretion that might provide              public comments regarding a possible             applies to the payment by providers of
sufficient safeguards under the anti-         new exception under the OIG’s civil              Medicare Part B or Medigap insurance
kickback statute?                             money penalty provisions in 42 CFR               premiums on behalf of Medicare or
  D. Can privileges ever be conditioned       part 1003 for independent dialysis               Medicaid beneficiaries.
on referrals, other than minimums             facilities that pay, in whole or in part,
necessary for clinical proficiency? Some      premiums for Supplemental Medical                B. Effects of Section 1128A(a)(5)
hospitals have apparently attempted to        Insurance (Medicare Part B) or Medicare             Following enactment of HIPAA,
condition privileges on a physician’s         Supplemental Health Insurance policies           representatives of a number of ESRD
referral of a predetermined level of his      (Medigap) for financially needy                  providers informed the OIG that many
or her hospital business to the hospital.     Medicare beneficiaries with end-stage            providers had been paying for Medicare
Assuming the privileges have monetary         renal disease (ESRD). The exception
                                                                                               Part B premiums and Medigap policies
value, such conditions would appear to        would have established various
                                                                                               for financially needy patients who could
be suspect under the anti-kickback            standards and guidelines that, if met,
                                                                                               not afford to purchase such insurance.
statute. Are there conditions under           would have resulted in the particular
                                                                                               The OIG concluded that such premium
which such conditions might be                arrangement being protected from civil
                                                                                               subsidies could be unlawful under the
justified? Failing financial health?          money sanctions under section
                                                                                               new law, and providers subsequently
Guaranteeing a patient volume                 1128A(a)(5) of the Social Security Act
                                                                                               suspended their purchases of Medigap
sufficient to support offering a critical     (the Act). Having considered the public
                                                                                               policies and payments of Medicare Part
service not otherwise available (e.g., a      comments and for the reasons explained
                                                                                               B premiums for their patients.
cardiac service in a rural area)? Does the    below, we are not promulgating an
                                                                                               Alternatively, some providers entered
level of required referrals or business       exception for these arrangements.
                                                                                               into funding arrangements with
matter (e.g., is there a difference           DATES: The NPRM published on May 2,
                                                                                               unrelated, nonprofit organizations that
between a requirement of 25 percent of        2000 at 65 FR 25460 is withdrawn as of
                                                                                               pay premiums on behalf of needy ESRD
referrals compared to 75 percent)?            December 9, 2002.
                                                                                               patients without regard to the identity of
  E. What is the effect of credentialing      FOR FURTHER INFORMATION CONTACT: Joel            the patient’s provider.
restrictions that apply only to members       Schaer, (202) 619–0089, Office of
of a group practice? What are the             Counsel to the Inspector General.                   To date, the OIG has approved three
implications of a hospital restricting        SUPPLEMENTARY INFORMATION:
                                                                                               premium funding arrangements through
privileges for some, but not all,                                                              advisory opinions. (OIG Advisory
members of a group practice? What             I. Background                                    Opinions Nos. 97–1, 97–2, and 98–17.1)
about restricting privileges of the entire    A. Section 1128A(a)(5) of the Act                OIG Advisory Opinion No. 97–1 is
group?                                                                                         representative. In that instance, the
  Finally, we are interested in                 The Health Insurance Portability and           American Kidney Fund (AKF)—a
comments on other aspects of restrictive      Accountability Act of 1996 (HIPAA),              section 501(c)(3) charitable and
credentialing practices that should           Public Law 104–191, amended the Act              educational organization—and a
inform our review of these practices and      to prohibit any person from offering             number of dialysis providers established
development of possible guidance under        Medicare or Medicaid beneficiaries               an arrangement whereby the providers
the anti-kickback statute.                    remuneration that might influence them           contribute funds to AKF, which, in turn,
                                              to order or receive from a particular            independently screens patients for
  Dated: November 19, 2002.                   provider, practitioner, or supplier items        financial need and pays Medicare Part
Janet Rehnquist,                              or services payable by Medicare or               B and Medigap premiums on behalf of
Inspector General.
                           Medicaid. Specifically, section 231(h) of        qualifying patients. Under the
[FR Doc. 02–31039 Filed 12–6–02; 8:45 am] 
   HIPAA established a new provision—               arrangement, the providers do not make
BILLING CODE 4152–01–P                        section 1128A(a)(5) of the Act—for the           premium payments to, or on behalf of,
                                              imposition of a civil money penalty              particular patients; there is no ‘‘pass
                                              (CMP) against any person who:                    through’’ of payments from providers to
DEPARTMENT OF HEALTH AND                        Offers or transfers remuneration to any        specific patients; and payments do not
HUMAN SERVICES                                individual eligible for benefits under           tie patients in any way to particular
                                              [Medicare or Medicaid] that such person          providers. In short, the premium
Office of Inspector General                   knows or should know is likely to influence
                                                                                               payments do not influence a patient’s
                                              such individual to order or receive from a
42 CFR Part 1003                              particular provider, practitioner, or supplier   selection of any particular provider—the
                                              any item or service for which payment may        core prohibited conduct under section
RIN 0991–AB04                                 be made, in whole or in part, under              1128A(a)(5). We understand that the
                                              [Medicare or Medicaid].                          AKF program now operates effectively
Medicare and State Health Care                                                                 and that contributions from ESRD
                                                 Section 231(h) of HIPAA also created
Programs: Fraud and Abuse; Civil                                                               providers have resulted in increasing
                                              a new section 1128A(i)(6) of the Act to
Money Penalty Exception To Protect                                                             numbers of needy patients receiving
                                              define the term ‘‘remuneration’’ for
Payment of Medicare Supplemental                                                               premium payment and other vital
                                              purposes of the new CMP.
Insurance and Medigap Premiums for                                                             assistance. In the five years since AKF
                                              ‘‘Remuneration’’ is broadly defined to
ESRD Beneficiaries                                                                             implemented its premium support
                                              include any ‘‘waiver of coinsurance and
AGENCY: Office of Inspector General           deductible amounts (or any part                  program, we have received only a
(OIG), HHS.                                   thereof), and transfers of items or              handful of letters from patients
ACTION: Notice of withdrawal of               services for free or for other than fair
                                                                                                 1 http://oig.hhs.gov/fraud/docs/advisoryopinions/
proposed rulemaking.                          market value.’’ There are several narrow
                                                                                               1997/kdp.pdf; http://oig.hhs.gov/fraud/docs/
                                              exceptions, including an exception for           advisoryopinions/1997/972ao.pdf and http://
SUMMARY: On May 2, 2000, we                   waivers of copayments based on                   oig.hhs.gov/fraud/docs/advisoryopinions/1998/
published a notice of proposed                financial need, if the waivers are neither       ao98_17.htm respectively.
